No. 19In the

Supreme Court of the United States
John Bucsek,
Petitioner,
v.
Metropolitan Life Insurance Co.,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Christopher C. Coss
Thomas J. Momjian
Coss & Momjian, LLP
111 Presidential Boulevard,
Suite 214
Bala Cynwyd, PA 19004
(610) 667-6800

Jack A. Gordon
Counsel of Record
Kent, Beatty & Gordon, LLP
11 Times Square
New York, NY 10036
(212) 421-4300
jag@kbg-law.com

Counsel for Petitioner

288802

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Did the appellate court err by ignoring Henry
Schein, Inc., et al. v. Archer & White Sales, Inc., 139 S.
Ct. 524 (U.S. Jan. 8, 2019) and barring arbitration based
on its perceived view of the merits of Petitioner’s claim as
opposed to the actual arbitrability of the claim?
Suggested Answer: Yes.
2. By barring arbitration in this matter, did the
appellate court ignore longstanding case law of this Court
holding that (i) claims are arbitrable where they touch
matters covered by the parties’ arbitration agreement;
and (ii) any doubts concerning the scope of arbitrable
issues should be resolved in favor of arbitration?
Suggested Answer: Yes.
3. Did the appellate court err by requiring that
“material events” underlying Petitioner’s claim occur
while Metropolitan Life Insurance Company (“MetLife”)
still was a member of the NASD as a condition of
compelling arbitration, rather than simply enforcing the
parties’ clear and unmistakable arbitration agreement?
Suggested Answer: Yes.
4. Did the appellate court proceed to ignore that
“material events” giving rise to the claim did in fact arise
while MetLife still was a member of the NASD?
Suggested Answer. Yes.

ii
5. Did the appellate court err by not permitting the
arbitrators to rule on arbitrability where the parties’
arbitration agreement evidenced a clear and unmistakable
intent by the parties that they do so?
Suggested Answer: Yes.

iii
PARTIES
As set forth in the case caption, the petitioner is John
Bucsek (“Mr. Bucsek”), who was the defendant in the trial
court proceeding and the appellant in the appellate court
proceedings, and the respondent is MetLife, which was
the plaintiff in the trial court proceeding and the appellee
in the appellate proceedings.

iv
related cases
There are no cases or proceedings relating to the
current matter at hand in this or any other court.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 4
A)	The Court of Appeals Improperly Based
its Ruling on its View of the Underlying
Merits of the Claim  . . . . . . . . . . . . . . . . . . . . . . . . 6
B)	Allegations in the Claim Touch Matters
	Covered by the Agreement . . . . . . . . . . . . . . . . . . 8
C)	It Cannot be Said with Positive Assurance
that the Case is not subject to Arbitration . . . . 13

vi
Table of Contents
Page
D)	There is no Basis for Applying a “Material
	Events” Standard  . . . . . . . . . . . . . . . . . . . . . . . . 15
E)	The Panel Should Have A llowed the
Arbitrators to Determine the Issue of
	Arbitrability  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vii
TABLE OF APPENDICES
Page
APPE N DI X A — OPI N ION OF THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
MARCH 22, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A ppendi x B — J U DGMEN T of the
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
MARCH 22, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a
APPENDIX C — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR
THE SECO N D CIRCUIT , D ATE D
JANUARY 22, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . 24a
APPE N D I X D — OR D ER OF THE
UNITED DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
	FILED MARCH 8, 2017 . . . . . . . . . . . . . . . . . . . . . . 26a
APPENDIX E — TRANSCRIPT OF THE
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, DATED MARCH 7, 2017 . . . . . . . . . 28a
APPENDIX F — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED MAY 9, 2019  . . . . . . . . . . . . . . . . . . . . . . . . 56a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Alliance Bernstein Investment Management, Inc.
v. Schaffran,
445 F.3d 121 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . 18, 19
AT&T Technologies, Inc. v.
Communications Workers,
475 U.S. 643 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ghalilli v. Bernstein and Metropolitan
Life Insurance Company,
FINRA No. 14-03223 (March 28, 2016) . . . . . . . . . . 16
Greenway v.
Metropolitan Life Insurance Company, et al.,
	FINRA No. 13-00827 (April 8, 2014) . . . . . . . . . . . . 16
Henry Schein, Inc., et al. v.
Archer & White Sales, Inc.,
139 S. Ct. 524 (U.S. Jan. 8, 2019) . . . . . . . . . . . . passim
Metropolitan Life Insurance Company v.
Bucsek,
919 F.3d 184 (2d Cir. 2018) . . . . . . . . . . . . . . . . . passim
Miller v. MetLife Securities, Inc. and
Metropolitan Life Insurance Company,
FINRA No. 14-02160 (March 21, 2015) . . . . . . . . . . 16

ix
Cited Authorities
Page
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 13
Moses H. Cone Memorial Hospital v.
Mercury Constr. Corp.,
460 U.S. 1 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13-14
Rent-A-Center West, Inc. v. Jackson,
561 U.S. 63, 130 S. Ct. 2772 (2010)  . . . . . . . . . . . . . . 18
Steelworkers v. American Mfg. Co.,
363 U.S. 564 (1960) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Storick v.
Metropolitan Life Insurance Company, et al.,
FINRA No. 14-03315 (June 8, 2016) . . . . . . . . . . . . . 16
Statutes and Other Authorities
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1332(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
FINRA Rule 13100(o)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FINRA Rule 13200  . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
FINRA Rule 13200(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
FINRA Rule 13413 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

1
OPINIONS BELOW
The court of appeals’ March 22, 2019 decision (Pet.
App. 1a-21a) is published at 919 F.3d 184 (2d Cir. 2019). The
district court’s March 8, 2017 order (Pet. App. 26a-27a)
and Transcript of March 7, 2017 Hearing (Pet. App. 28a
– 55a) are not published. The court of appeals’ March 22,
2019 judgment is included at Pet. App. 22a – 23a.
JURISDICTION
(1) Date of the judgment sought to be reviewed:
March 22, 2019;
(2) The petitioner timely sought rehearing on
April 5, 2019, which was denied on May 9, 2019
(Pet. App. 56a – 57a).
(3) The provisions of this Court’s Rule 14.1(e)
(iii), regarding cross-petitions for reargument,
are not applicable here.
(4) Authority to review the decisions of a United
States Court of Appeals is granted by 28 U.S.C.
§ 1254:
Cases in the courts of appeals may be
reviewed by the Supreme Court by the
following methods:. . . (1) By writ of
certiorari granted upon the petition of
any party to any civil or criminal case,
before or after rendition of judgment
or decree.

2
(5) This petition does not challenge the
constitutionality of any state or federal law, so
the notice requirements of this Court’s Rule
29.4(b) and 29.4(c) are inapplicable.
STATEMENT OF THE CASE
Mr. Bucsek joined MetLife in 2002 and signed a Form
U-4. The Form U-4 signed by Mr. Bucsek in connection
with his MetLife employment states in pertinent part: “I
agree to arbitrate any dispute, claim or controversy that
may arise between me and my firm . . . that is required
to be arbitrated under the rules, constitutions, or by-laws
of the SROs [self-regulatory organizations] indicated in
Section 4 (SRO REGISTRATION) as may be amended
from time to time....” The NASD is one of the SROs
indicated in Section 4. Although MetLife terminated its
NASD membership in July 2007, Mr. Bucsek remained
employed with MetLife up until July 1, 2016.1
Rule 13200(a) of the FINRA Code of Arbitration
Procedure for Industry Disputes (“FINRA Code”),
entitled “Required Arbitration,” states, in pertinent part:
“[A] dispute must be arbitrated under the Code if the
dispute arises out of the business activities of a member
or an associated person and is between or among:....
Members and Associated Persons....” Rule 13100(o) of
the FINRA Code defines “member” as “any broker or
dealer admitted to membership in FINRA, whether or
not the membership has been terminated or cancelled....”
(emphasis added). Mr. Bucsek is an “associated person”
1. On July 30, 2007, due to its merger with the New York Stock
Exchange, the NASD became known as FINRA.

3
within the meaning of the FINRA Code. MetLife, as a
former member, is a “member” and, under Rule 13200(a),
all disputes between them must be arbitrated. 2
On July 8, 2016, in accordance with his Form U-4, Mr.
Bucsek filed an arbitration against MetLife in FINRA,
asserting various claims pertaining to his compensation. 3
In its July 15, 2016 correspondence serving Mr. Bucsek’s
Statement of Claim on MetLife, FINRA stated: “You are
required by FINRA rules to arbitrate this dispute.” In
its follow-up letter dated September 16, 2016 re-serving
the Statement of Claim on MetLife, FINRA again stated:
“You are required by FINRA rules to arbitrate this
dispute.”
In accordance with its rules, FINRA subsequently
sent the parties proposed arbitrators to select and rank.
Counsel for MetLife asked Mr. Bucsek’s counsel for a twoweek extension to submit MetLife’s arbitrator rankings,
and counsel for Mr. Bucsek agreed to give MetLife a twoweek extension, up until October 24, 2016.
On October 24, 2016, MetLife filed with FINRA a
request to dismiss the arbitration because MetLife was
no longer a member of FINRA. Despite having asked for
a two-week extension to rank the arbitrators, MetLife
submitted no rankings at all. After considering all of
the arguments submitted by the parties, including the
same ones subsequently raised by MetLife in these court
2. The FINRA Code can be accessed on FINRA’s website at
www.finra.org.
3. The FINRA Statement of Claim is attached as Exhibit A to
the complaint filed by MetLife in the district court. Docket Entry 1-1.

4
proceedings, FINRA’s Director of Arbitration denied
MetLife’s request to dismiss the arbitration.
After the panel was appointed in this matter, MetLife
filed a request with FINRA to have the matter “repaneled.” In a letter dated December 8, 2016, FINRA
denied MetLife’s request to have the matter “re-paneled.”
Only after failing to submit its arbitrator rankings, and
facing the prospect of proceeding before an arbitration
panel with which it evidently was unhappy, did MetLife
first file a complaint and motion in the United States
District Court for the Southern District of New York in
February 2017 seeking to enjoin the FINRA arbitration
– approximately 6 months after MetLife had been served
with Mr. Bucsek’s Statement of Claim. Subject matter
jurisdiction was based on 28 U.S.C. § 1332(a)(1).
MetLife also never sought from the arbitration panel
a determination as to the arbitrability of Mr. Bucsek’s
claims. Instead, after the FINRA Director had rejected
its argument as to arbitrability, MetLife filed its court
action. The district court ruled in MetLife’s favor. The
United States Court of Appeals for the Second Circuit
affirmed the decision, and Mr. Bucsek’s petition for
rehearing en banc was denied.
REASONS FOR GRANTING THE PETITION
In 2018 alone, over 4300 cases were arbitrated
before FINRA. Tens of thousands of additional cases are
arbitrated before other venues every year. This Court
repeatedly has held that all doubts should be resolved in
favor of arbitration. Not only is arbitration a highly efficient
and cost-effective means of resolving disputes, it ensures

5
that the federal and state courts are not backlogged with
disputes that parties have agreed to litigate elsewhere.
In affirming the district court’s preliminary injunction
enjoining the FINRA arbitration, the court of appeals
erred in numerous respects and engaged in a literal
assault against prior precedent of this Court, including
a recent unanimous decision. First, the court of appeals
allowed its view of the merits of the underlying claims to
improperly influence and dictate its ruling on arbitrability.
Second, the court of appeals ignored precedent of this
Court requiring arbitration where the allegations touch
matters covered by the parties’ arbitration agreement.
Third, the court of appeals simultaneously ignored clear
precedent of this Court that all doubts be resolved in favor
of arbitration.
Fourth, the court of appeals further erred because
it ignored the parties’ arbitration agreement explicitly
requiring arbitration of all disputes involving “former
members” of the NASD, finding instead that arbitration
was required only if “material events” giving rise to the
claim arose while MetLife still was a NASD member.
The Form U-4 does not limit arbitration of disputes only
to those involving “material events” arising prior to the
termination of a member’s registration. To the contrary,
the Form U-4 contains broad and sweeping language
mandating arbitration of virtually all disputes between an
associated person like Mr. Bucsek and former members
such as MetLife – irrespective of when the dispute
arises. The court of appeals failed to enforce the parties’
arbitration agreement as written; yet another fatal error.

6
Fifth, exacerbating its error even more, the court of
appeals improperly concluded that no “material events”
giving rise to the claim arose while MetLife still was a
NASD member when precisely the opposite is true. Here
again, in contravention of the Court’s recent 9-0 decision
in Schein, supra, the court of appeals improperly allowed
its perception that Mr. Bucsek’s claims were “groundless”
to dictate its determination as to arbitrability. Indeed,
Mr. Bucsek’s FINRA claim is replete with allegations
regarding MetLife’s breach of contract, fraud, and other
improper conduct occurring pre-July, 2007; allegations
which the court of appeals wholly ignored in its ruling.
Lastly, the court of appeals never should have made a
determination as to arbitrability at all. Under well-settled
precedent, this was a determination to be made by the
FINRA arbitrators.
In sum, the court of appeals’ ruling is grievously wrong.
It also displays a callous disregard for the pro-arbitration
policies and prior (and very recent) precedent of this
Court. The court of appeals’ ruling opens the floodgates
to potentially thousands of arbitrable claims clogging up
the court system every year. The message should be sent
to the court of appeals, and to other like-minded courts,
that the pro-arbitration policies established by this Court
cannot be flouted.
A) The Court of Appeals Improperly Based its Ruling
on its View of the Underlying Merits of the Claim
In a recent 9-0 decision, this Court in Henry Schein,
Inc., et al. v. Archer & White Sales, Inc., 139 S. Ct. 524
(U.S. Jan. 8, 2019) rejected the exception previously

7
followed by a number of appellate courts pursuant to
which, even where “clear and unmistakable evidence”
existed that the parties intended for the arbitrator(s)
to decide the issue of arbitrability, a court nonetheless
could decide the issue if a party’s request for arbitration
was “wholly groundless.” In Schein, the Supreme Court
held: “We conclude that the ‘wholly groundless’ exception
is inconsistent with the text of the [Federal Arbitration]
Act, and with our precedent.” 139 S. Ct. at 529.
In its opinion, however, the court of appeals expressly
relied upon the supposed “groundlessness of Bucsek’s
claim of arbitrability” in affirming the trial court’s
injunction barring the arbitration. Metropolitan Life
Insurance Company v. Bucsek, 919 F.3d 184, 196 (2d Cir.
2018); Pet. App. at 21a. This, by itself, is directly contrary
to Schein.
Equally important, at oral argument, in connection
with Mr. Bucsek’s wage payment claim, one panelist
remarked that “…Mr. Bucsek was a, obviously a
sophisticated person involved in business. And it seems
hard to imagine that if he was so, I know this gets to the
merits which we aren’t supposed to get to, but it seems
hard to imagine that he would not have at least tried to get
some sort of understanding about his pay, given that he
was there for a number of years, and it sort of leaves one
with the feeling that this is almost thrown in as a way of
getting to possible claims before there was the withdrawal
by MetLife.” Court of Appeals Oral Arg. (Feb. 28, 2018)
at 6:02-7:25.
The suggestion that one of Mr. Bucsek’s claims was
“thrown in” is tantamount to finding it to be groundless.

8
In fact, the court of appeals readily admitted that the
merits of the claim are something “we aren’t supposed to
get to” but did so nonetheless. As this Court warned in
Schein: “We have held that a court may not ‘rule on the
potential merits of the underlying’ claim that is assigned
by a contract to an arbitrator, even if it appears to the
court to be frivolous.” 139 S. Ct. at 529 (quoting AT&T
Technologies, Inc. v. Communications Workers, 475
U.S. 643, 649-650 (1986)). As the Supreme Court held in
AT&T Technologies: “A court has ‘no business weighing
the merits of the grievance’” because the “‘agreement is
to submit all grievances to arbitration, not merely those
which the court will deem meritorious.’” Id. at 650 (quoting
Steelworkers v. American Mfg. Co., 363 U.S. 564, 568
(1960)).
Long after oral argument in this matter, upon the
Court’s ruling in Schein, the court of appeals itself
recognized the significance of the decision and even
asked the parties for supplemental briefing on the Schein
decision. Pet. App. at 24a – 25a. The court of appeals,
however, then simply ignored the principles of Schein,
as it improperly “weigh[ed] the merits of the grievance”
– both in regards to Mr. Bucsek’s claim of arbitrability
and the underlying merits of his claims. Certiorari is
crucial to reinforce the message that a parties’ arbitration
agreement cannot be disregarded simply because a court
may have a dim view of a party’s claim.
B) Allegations in the Claim Touch Matters Covered
by the Agreement
It is well-settled that, if the allegations underlying
a party’s claim “touch matters” covered by the parties’

9
arbitration agreement, arbitration is mandatory. See
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
supra, 473 U.S. at 624, n. 13. Mr. Bucsek’s FINRA
claim clearly “touches matters” covered by the parties’
arbitration agreement, yet the court of appeals ignored
this well-settled standard.
Desperate to prevent Mr. Bucsek from proceeding
to arbitration on claims it deemed to be lacking in merit,
rather than applying the proper standard enunciated by
this Court, the court of appeals improperly “rewrote” Mr.
Bucsek’s FINRA Statement of Claim so as to limit its
allegations only to the time period 2011-2016; post-dating
MetLife’s NASD (now FINRA) membership. According to
the court of appeals, “[h]is claims relate to his employment
by MetLife during the period from 2011 (four years after
MetLife’s 2007 withdrawal from the NASD) until the end
of his employment at MetLife in 2016.” Metropolitan Life
Insurance Company v. Bucsek, 919 F.3d 184, 188 (2d Cir.
2019); Pet. App. at 4a. The court of appeals further stated:
“Bucsek contends that his claims also challenge MetLife’s
dealings with him during the time of membership in the
NASD, but this argument is meritless.” Metropolitan Life
Insurance Company v. Bucsek, 919 F.3d 184, 196, n.3 (2d
Cir. 2019); Pet. App. at 12a.
The court of appeals’ findings are squarely contradicted
by the plain and unambiguous allegations in Mr. Bucsek’s
Statement of Claim, which date well before MetLife
terminated its NASD membership and in fact originate
with Mr. Bucsek’s commencement of employment with
MetLife in 2002.4 Indeed, the Statement of Claim plainly
4. Importantly, while MetLife never became a FINRA member,
as the court of appeals noted, “the parties and the District Count

10
states: “For many years, Mr. Bucsek has supervised one
of the most successful and profitable agencies not only in
his Region but in the entire MetLife system. Nevertheless,
during this entire time, Met Life – without any objective
or rational basis – has failed to compensate Ms. Bucsek
accordingly.” 5 The “Factual Background” section of
Mr. Bucsek’s Statement of Claim proceeds to state that
MetLife had been “discriminately underpaying him for
years,” a reference which again includes the years MetLife
was a NASD member.
The Statement of Claim is replete with allegations that
“touch matters” covered the by the parties’ arbitration
agreement; i.e. relating to the 2002-2007 timeframe. In his
breach of contract claim, Mr. Bucsek alleges: “MetLife’s
failure and refusal to compensate Mr. Bucsek similar
to his peers is a blatant breach of the implied covenant
of good faith and fair dealing. MetLife cannot possibly
reconcile the compensation it has paid Mr. Bucsek with
the revenues he has generated over the years and the
approximately $100 million or more in profits Mr. Bucsek
has earned the company.” Crucially, this $100 million or
more in profits figure is not what Mr. Bucsek generated
at MetLife since 2011, or since MetLife ceased being a
NASD member, but rather the profits he generated at
MetLife since 2002.

have assumed that the FINRA Code governs…” Metropolitan Life
Insurance Company v. Bucsek, 919 F.3d 184, 189 (2d Cir. 2019); Pet.
App. at 6a.

5. As previously noted, Mr. Bucsek’s Statement of Claim is
attached to MetLife’s Complaint as Exhibit “A”; Docket Entry 1-1.

11
The ensuing sentence in Mr. Bucsek’s breach of
contract claim alleges that MetLife’s “cloak and dagger”
approach to compensating him is a “gross violation of
MetLife’s fundamental duty to ‘act in good faith and
deal fairly’ with Mr. Bucsek.” Once again, the “cloak and
dagger” reference is to MetLife’s failure to detail “his
compensation in any type of manual and not appropriately
recognizing and rewarding him for the revenues and
profitability of his agency” throughout his entire tenure
with MetLife.
In alleging MetLife violated New Jersey’s Wage
Payment Law, Mr. Bucsek similarly makes clear that
MetLife “never provided him with a compensation manual
detailing his rate of pay and, more significantly, how
his pay would be calculated.” The Statement of Claim
proceeds to allege that “on an annual basis up until 2016” –
which included the years 2002 through 2007 while MetLife
was a NASD member – “Mr. Bucsek received a phone
call advising that he would be paid a certain base, and be
eligible to receive certain incentive compensation, but the
base and compensation figures provided by MetLife were
arrived at ‘willy-nilly’ and bear no reasonable correlation
to the revenues and/or profitability of his agency.”
The Statement of Claim then states that “MetLife has
‘short-changed’ Mr. Bucsek for years in direct violation
of New Jersey’s Wage Payment Law.” The years in which
MetLife “short-changed” Mr. Bucsek clearly include 20022007 and, therefore, this allegation likewise “touches
matters” covered by the parties’ arbitration agreement.
In his fraud claim, Mr. Bucsek alleges that “MetLife’s
failure to advise Mr. Bucsek that his compensation was so
much lower than that of his peers is a material omission.”

12
MetLife’s failure to advise Mr. Bucsek in this regard
commenced in 2002 and continued for years while MetLife
remained a NASD member.
In his Answer filed in the district court, Mr. Bucsek
also made clear at the outset that “[t]he Statement of
Claim is premised, in very large part, on MetLife’s
failure to compensate him throughout his entire MetLife
employment, which started five years before MetLife
ceased being a member of FINRA’s predecessor.” The
court of appeals ignored each and every one of these
allegations of wrongdoing occurring while MetLife still
was a NASD member. Instead, in a footnote, the Panel
opined that “[w]hile it is true that Bucsek’s claims make
vague, passing references to his ‘entire’ employment at
MetLife, all of the allegations of wrongdoing – primarily
denials of requests for a raise and payment errors – are
alleged to have occurred between 2011 and 2016, years
after MetLife’s withdrawal from the NASD.” Metropolitan
Life Insurance Company v. Bucsek, 919 F.3d 184, 196, n.3
(2d Cir. 2019); Pet. App. at 12a.
Mr. Bucsek’s allegations of wrongdoing preceding
MetLife’s withdrawal from the NASD are anything but
“vague” or “passing.” Furthermore, nothing in the record
supports the court of appeals’ determination that Mr.
Bucsek’s allegations of wrongdoing related “primarily”
to “denials of requests for a raise and payment errors.”
That said, the court of appeals’ use of the word “primarily,”
as opposed to “exclusively” or “solely,” makes clear that
Mr. Bucsek alleged wrongdoing beyond just “denials of
requests for a raise and payment errors.” This wrongdoing,
as the foregoing allegations from Mr. Bucsek’s Statement
of Claim vividly illustrate, include being underpaid

13
throughout the entirety of his employment and never
being provided with pertinent information pertaining to
how his pay was calculated.
Even more important, the court of appeals’ finding
that “it is true that Mr. Bucsek’s claims make vague,
passing references to his ‘entire’ employment at MetLife”
– by itself – requires arbitration of this dispute. This Court
in Mitsubishi required only that the factual allegations
“touch matters” covered by the parties’ arbitration
agreement. The definition of “touch on/upon” includes to
“briefly talk or write about (something).” (See MerriamWebster Dictionary) (emphasis added). The definition of
“touch on/upon” is virtually identical to that of “passing”
used by the appellate court in its Opinion. (See Collins
English Dictionary; “[a] passing mention or reference is
brief and is made while you are talking or writing about
something else.”) (emphasis added). At a minimum, Mr.
Bucsek’s Statement of Claim “briefly” talks or writes
about wrongdoing he sustained in the years 2002-2007
when MetLife was a NASD member.
Quite simply, the court of appeals let its view of the
merits of Mr. Bucsek’s claims infect its judgment in
virtually every conceivable respect. This included “rewriting” the Statement of Claim so as to evade this Court’s
ruling in Mitsubishi that any dispute that “touches” the
parties’ arbitration agreement must be arbitrated.
C) It Cannot be Said with Positive Assurance that the
Case is not subject to Arbitration
The court of appeals’ ruling also runs afoul of the
Supreme Court’s decision in Moses H. Cone Memorial

14
Hospital v. Mercury Constr. Corp., 460 U.S. 1 (1983).
As this Court made clear in Moses Cone, “any doubts
concerning the scope of arbitrable issues should be
resolved in favor of arbitration.” Id. at 24-25.
The court of appeals’ refusal to apply Moses Cone
makes clear that it did not merely issue its decision in
error but that it deliberately defied this Court’s prior
ruling. Mr. Bucsek relied upon Moses Cone in both his
opening and reply briefs. Tellingly, however, nowhere in
its lengthy decision does the court of appeals address this
decision. The reason is simple. Based on the allegations
in the Statement of Claim, it cannot be said with positive
assurance that this case is not subject to arbitration and,
hence, under Supreme Court precedent, arbitration is
required.
Significantly, the district court itself stated only that
“Bucsek’s claims appear to span the period beginning in
2011, when a new regional manager named Peter Nejad
took over as Bucsek’s director, and ending in 2016, when
Bucsek filed his claim.” Pet. App. at 42a. The use of the
word “appear,” on its face, leaves open the possibility that
Mr. Bucsek’s claims are subject to arbitration.
The court of appeals’ finding that it is “true that
Bucsek’s claims make vague, passing references to
his ‘entire’ employment at MetLife” likewise makes it
impossible to say with positive assurance that this case
is not subject to arbitration. It is readily apparent from
its finding that Mr. Bucsek’s Statement of Claim made
“vague, passing references to his ‘entire’ employment at
MetLife,” that the court of appeals similarly harbored at
least some doubt as to whether his claims were subject to

15
arbitration. But the court of appeals improperly proceeded
to resolve those doubts in favor of enjoining – rather
than compelling – arbitration; in direct contravention of
longstanding precedent.
D) There is no Basis for Applying a “Material Events”
Standard
Ultimately, the court of appeals determined that
whether Mr. Bucsek’s claims should proceed to arbitration
depended on whether “material events” giving rise to his
claim occurred while MetLife still was a NASD member.
Nothing whatsoever in the Form U-4, however, limits
arbitration only to those disputes where the “material
events” arose prior to the termination of MetLife’s NASD
membership.
No court of appeals previously had applied or
endorsed this “material events” analysis. In concluding
that Mr. Bucsek’s claims were not arbitrable, the court of
appeals merely relied on various district court decisions.
Metropolitan Life Insurance Company v. Bucsek, 919
F.3d 184, 193 (2d Cir. 2019); Pet. App. at 15a. The court
of appeals held that “Bucsek’s proposed interpretation
would mean that all persons or entities that were ever
subject to FINRA’s arbitration code would forever remain
subject to it with regard to future disputes between them,
even if the dispute concerned events that occurred years,
decades, or even centuries after either of the parties to the
dispute had ceased to have any connection with FINRA.”
Metropolitan Life Insurance Company v. Bucsek, 919 F.3d
192 (2d Cir. 2019); Pet. App. at 13a.

16
This “parade of horribles” relied upon by the court of
appeals in order to avoid arbitration is patently absurd.
Under the Form U-4, arbitration only applies to matters
arising out of Mr. Bucsek’s employment with MetLife,
which obviously would not last “centuries.”
That said, MetLife itself vehemently argued that
arbitration “is a matter of contract.” The arbitration
“contract” here, the Form U-4, in no way limits arbitration
only to disputes involving material facts arising prior to
the termination of MetLife’s NASD membership. The
FINRA rules likewise are completely bereft of any such
limitation.
Indeed, MetLife has engaged in numerous FINRA
arbitrations in the years since terminating its membership.
See, e.g., Storick v. Metropolitan Life Insurance Company,
et al., FINRA No. 14-03315 (June 8, 2016); Ghalilli v.
Bernstein and Metropolitan Life Insurance Company,
FINRA No. 14-03223 (March 28, 2016); Miller v. MetLife
Securities, Inc. and Metropolitan Life Insurance
Company, FINRA No. 14-02160 (March 21, 2015);
Greenway v. Metropolitan Life Insurance Company, et
al., FINRA No. 13-00827 (April 8, 2014).6 MetLife also
has sought affirmative relief of its own in one or more of
these FINRA arbitrations. In Storick, supra, for instance,
MetLife prevailed on a counterclaim against an associated
person “for breach of contract for pre-paid unearned
commissions.” Mr. Bucsek’s dispute against MetLife
similarly relates to commissions/compensation. MetLife’s
attempt to evade FINRA arbitration of Mr. Bucsek’s claims
– after prevailing on its own counterclaim for “pre-paid
6. These arbitration awards can be accessed at www.finra.org.

17
unearned commissions” in another FINRA proceeding – is
both hypocritical and totally at odds with the Form U-4.
Moreover, in each of these arbitrations MetLife was
assessed with a “member surcharge.” The reason MetLife
was assessed a member surcharge by FINRA is quite
simple. As a former member, MetLife is deemed to be a
“member” and is expressly required under FINRA Rule
13100(o) to arbitrate its disputes with an “associated
person.” In fact, when MetLife initially contested FINRA
jurisdiction – raising the identical arguments it ultimately
raised in the district and appellate courts – the Director
of FINRA refused to decline jurisdiction. The fact that
MetLife first sought relief in FINRA, not court, and that
the FINRA Director rejected its claim that arbitration
of Mr. Bucsek’s disputes was not required, is extremely
illuminating.
Briefly stated, the plain language of Mr. Bucsek’s
Form U-4, incorporating the FINRA rules, requires
arbitration of the disputes set forth in the Statement of
Claim, regardless of whether the “material events” giving
rise to Mr. Bucsek’s claims occurred while MetLife still
was a NASD member. This Court has repeatedly made
clear that arbitration is a “matter of contract.” Here,
the court of appeals issued a ruling that the parties’
arbitration agreement can be rewritten by a court so as
to make otherwise arbitrable claims nonarbitrable. The
court of appeals’ ruling, again, is a direct assault on the
many pro-arbitration decisions of this Court.7
7. In any event, of course, as set forth in Heading B, supra,
“material events” giving rise to Mr. Bucsek’s claims did arise while
MetLife was a NASD member. This serves as yet further evidence

18
E) The Panel Should Have Allowed the Arbitrators to
Determine the Issue of Arbitrability
Lastly, the court of appeals also improperly usurped
the FINRA panel’s jurisdiction to determine if this dispute
is subject to arbitration. As the Schein ruling makes clear,
“[u]nder the [Federal Arbitration] Act, arbitration is a
matter of contract, and courts must enforce arbitration
contracts according to their terms.” 139 S.Ct. at 529
(citing Rent-A-Center West, Inc. v. Jackson, 561 U.S. 63,
67, 130 S.Ct. 2772 (2010)). This Court in Schein proceeded
to hold: “Applying the Act, we have held that parties may
agree to have an arbitrator decide not only the merits
of a particular dispute but also ‘gateway’ questions of
‘arbitrability,’ such as whether the parties have agreed to
arbitrate or whether their agreement covers a particular
controversy.” Id. (citing Rent-A-Center, 561 U.S. at 68-69).
In Alliance Bernstein Investment Management,
Inc. v. Schaffran, 445 F.3d 121 (2d Cir. 2006) the former
employee, like Mr. Bucsek here, signed a Form U-4.
The court of appeals noted that the Form U-4 expressly
incorporated the NASD (now FINRA) Code, and held that
“disputes over the interpretation of its provisions must
be arbitrated.” 445 F.3d at 127 (emphasis added).
In holding that the arbitration panel had jurisdiction
to decide whether the matter was arbitrable, the court
in Alliance Bernstein relied specifically on then-NASD
Code Rule 10324, stating in part: “The arbitrators shall
be empowered to interpret and determine the applicability
that the court of appeals did not merely err but intentionally
circumvented this Court’s prior rulings.

19
of all provisions under this Code....Such interpretations...
shall be final and binding upon the parties.” 445 F.3d 127.
Quoting the court of appeals: “[W]e hold that the [NASD]
Code unequivocally provides for the arbitrability dispute
at issue in this case to be decided in arbitration rather
than the courts.” Id. at 126 (emphasis added).
The current FINRA Code has a nearly identical
provision, Rule 13413 (entitled “Jurisdiction of the Panel
and Authority to Interpret the Code”), which states:
“The panel has the authority to interpret and determine
the applicability of all provisions under the Code. Such
interpretations are final and binding upon the parties.”
One of the rules which the arbitrators have jurisdiction
to interpret is FINRA Rule 13200; i.e. whether a dispute
is a “Required Submission.”
Indeed, MetLife itself recognized that FINRA, not the
court, was the proper entity to determine arbitrability. Only
after losing its challenge to arbitrability before FINRA did
MetLife seek a “second bite at the apple” in court.
In failing to follow Schein and AllianceBernstein, the
court of appeals in its decision states: “Furthermore, we
find nothing in the Code that clearly and unmistakably
evidences a contractual intent to confer resolution of
arbitrability on the arbitrators for a claim such as Bucsek’s,
which is based on facts long subsequent to the parties’
involvement in FINRA.” Metropolitan Life Insurance
Company v. Bucsek, 919 F.3d 192, 196 (2d Cir. 2019); Pet.
App. at 21a. Not only is the court of appeals’ finding that
Mr. Bucsek’s claim is based “on facts long subsequent to
the parties’ involvement in FINRA” clearly wrong, under
this Court’s decision in Schein it was up to the arbitrators

20
to interpret FINRA Rule 13200 and, in particular, to
determine if it requires arbitration of a dispute that is
based on allegations setting forth a continuum of improper
conduct commencing while MetLife still was a NASD
member and extending thereafter.
CONCLUSION
Had the court of appeals simply erred, perhaps this
might not be an appropriate case for certiorari. The court
of appeals’ ruling, however, evinces something far more
troubling – an appellate court that re-wrote the parties’
arbitration agreement, and ignored numerous precedents
of this Court including a recent 9-0 decision, simply because
it did not deem the claims to be meritorious. Indeed, one
of the judges on the panel (the Chief Judge of the Second
Circuit) admitted as much during oral argument, conceding
that a court should not delve into the merits when deciding
arbitrability but proceeding to do just that.
The pro-arbitration policies set forth in this Court’s
prior rulings cannot be assailed. Nor can a precedent
be allowed to stand that a court can re-write a parties’
arbitration agreement “willy-nilly,” ignore the allegations
in an arbitration claim which it finds inconvenient and
stand in the way of its desired result, and decide questions
of arbitrability not based on the parties’ arbitration
agreement but on its own view of the merits of the case.
Accordingly, the Petition for Writ of Certiorari should
be granted.

21
Respectfully submitted,
Christopher C. Coss
Thomas J. Momjian
Coss & Momjian, LLP
111 Presidential Boulevard,
Suite 214
Bala Cynwyd, PA 19004
(610) 667-6800

Jack A. Gordon
Counsel of Record
Kent, Beatty & Gordon, LLP
11 Times Square
New York, NY 10036
(212) 421-4300
jag@kbg-law.com

Counsel for Petitioner
Dated: August 7, 2019

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED MARCH 22, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2017
Docket No. 17-881
METROPOLITAN LIFE INSURANCE CO.,
Plaintiff-Appellee,
v.
JOHN BUCSEK,
Defendant-Appellant.
February 28, 2018, Argued;
March 22, 2019, Decided
Before: KATZMANN, Chief Judge, LEVAL, Circuit
Judge, and CARTER, District Judge.*
Defendant John Bucsek, a former employee of Plaintiff
Metropolitan Life Insurance Company, appeals from an
order of the United States District Court for the Southern
District of New York (Paul A. Engelmayer, J.) granting
MetLife a preliminary injunction barring Bucsek from
arbitrating his claims before the Financial Industry
* Judge Andrew L. Carter, of the United States District Court
for the Southern District of New York, sitting by designation.

2a
Appendix A
Regulatory Authority (FINRA). The district court held
that 1) the question whether MetLife was obligated to
arbitrate the dispute was to be decided by a court, rather
than an arbitrator, and 2) MetLife was not required by the
FINRA arbitration code to arbitrate claims arising out
of events that occurred long after MetLife’s withdrawal
from FINRA’s predecessor, the National Association of
Securities Dealers. AFFIRMED.
LEVAL, Circuit Judge:
Defendant John Bucsek, a former employee of Plaintiff
Metropolitan Life Insurance Company (“MetLife”),
appeals from an order of the United States District Court
for the Southern District of New York (Paul A. Engelmayer,
J.) granting MetLife’s motion for a preliminary injunction
barring Bucsek from pursuing claims against MetLife in
arbitration, rather than in court. Bucsek had instituted
an arbitration before the Financial Industry Regulatory
Authority (“FINRA”), the successor to the National
Association of Securities Dealers (“NASD”). MetLife
had been a member of the NASD during the early part
of Bucsek’s employment. MetLife argues that it has no
obligation to arbitrate Bucsek’s claims because they are
based on events that occurred long after MetLife and
Bucsek ceased to have any connection with the NASD. The
District Court ruled in MetLife’s favor, staying arbitration
of Bucsek’s claims. We affirm.
BACKGROUND
In 2002, Bucsek joined MetLife’s retail distribution
channel, which later became known as the MetLife
Premier Client Group. He served as Co-Managing Partner

3a
Appendix A
and was registered with the NASD as a securities industry
representative of MetLife. During the first several years
of Bucsek’s employment at MetLife, until 2011, MetLife
was a member of the NASD.
As an NASD member, MetLife was subject to the
NASD Code of Arbitration Procedure (“NASD Code”),
which required arbitration of disputes between members
and “person[s] associated with a member.” Rule 10201,
NASD Code. Bucsek, then a registered representative of
a member, was a “person associated with a member,” as
defined in the NASD Bylaws. See NASD Bylaws, Art. I (rr).
Bucsek, upon joining MetLife, was required to sign a
Form U-4, “Uniform Application for Securities Industry
Registration or Transfer,” which contained an agreement
to arbitrate. It provided:
I agree to arbitrate any dispute, claim or
controversy that may arise between me and
my firm . . . that is required to be arbitrated
under the rules, constitutions, or by-laws of
[the NASD] . . . as may be amended from time
to time . . . .1 App. 97-98.
1. The arbitration clause does not specifically name the NASD,
but rather expresses Bucsek’s agreement to arbitrate any dispute
“that is required to be arbitrated under the rules, constitutions, or
by-laws of the SROs [Self-Regulatory Organizations] indicated in
Section 4 (SRO Registration) . . . .” App. 97. The parties agree that
by signing the Form U-4, Bucsek registered with the NASD and
agreed to arbitrate disputes before it. Accordingly, we conclude that
Bucsek agreed to arbitrate disputes before the NASD pursuant to
his Form U-4 arbitration clause.

4a
Appendix A
On July 9, 2007, MetLife terminated its membership
in the NASD. On July 30, 2007, the NASD merged with
parts of the New York Stock exchange to form FINRA
and the NASD code was replaced by the FINRA Code.
MetLife never became a member of FINRA.
Bucsek’s employment at MetLife continued for nine
years after MetLife severed its connection with the
NASD, until July 1, 2016, when Massachusetts Mutual
Life Insurance Company acquired the MetLife Premier
Client Group.
On July 11, 2016, Bucsek filed a Statement of Claim
in arbitration before FINRA, asserting claims related to
unfair compensation, including breach of contract, fraud,
negligence, and violation of the New Jersey Wage Payment
Law, N.J.S.A §§ 34.11-4.1 et seq. His claims relate to his
employment by MetLife during the period from 2011 (four
years after MetLife’s 2007 withdrawal from the NASD)
until the end of his employment at MetLife in 2016.
MetLife submitted a letter-motion to FINRA seeking
dismissal of Bucsek’s claims, arguing that it was not
required by the Code to arbitrate this dispute. By order
of the Director of the FINRA Office of Dispute Resolution
on December 1, 2016, FINRA denied MetLife’s application
for dismissal.
On February 2, 2017, MetLife filed this this action
in the United States District Court for the Southern
District of New York seeking a preliminar y and
permanent injunction barring Bucsek from pursuing the

5a
Appendix A
arbitration. The district court found that MetLife had
shown probability of success on the merits and granted
a preliminary injunction staying the arbitration. Bucsek
brought this appeal.
DISCUSSION
Bucsek contends that the District Court erred both
in finding that MetLife had shown probability of success
as to the non-arbitrability of the dispute, and in ruling
on the question of arbitrability, rather than leaving it to
the arbitrators. 2
2. Grants (and denials) of preliminary injunctions are reviewed
for abuse of discretion; the adjudication of questions of law in deciding
whether to grant a preliminary injunction is reviewed de novo. See
Goldman Sachs & Co. v. Golden Empire Schs. Fin. Auth., 764 F.3d
210, 214 (2d Cir. 2014) (“When reviewing an order granting either
a preliminary or a permanent injunction, we review the district
court’s legal holdings de novo and its ultimate decision for abuse of
discretion.”). A party seeking a preliminary injunction must establish
1) a likelihood of success on the merits, 2) a likelihood of irreparable
harm absent relief, 3) that the balance of equities was in its favor,
and 4) that an injunction is in the public interest. Winter v. NRDC,
Inc., 555 U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed. 2d 249 (2008). Because
Bucsek bore the burden of proof to show arbitrability of the dispute,
MetLife’s burden on its motion for a preliminary injunction barring
the arbitration operates differently from the more conventional case
in which the party seeking an injunction also bears the burden of
proof on the issue in dispute. MetLife’s burden accordingly was to
show likelihood of success in showing that Bucsek could not succeed in
showing entitlement to arbitrate. However, as the facts with respect
to MetLife’s obligation to arbitrate are substantially undisputed,
and the issues in contention relate entirely to questions of law, the
assignment of burdens of proof is of little or no consequence for the
resolution of this appeal.

6a
Appendix A
The provisions of the arbitration code are central
to both of Bucsek’s contentions. It is not entirely clear
whether the governing code for this dispute is the NASD
Code, to which MetLife and Bucsek were undoubtedly
subject from the time Bucsek began his employment at
MetLife until MetLife withdrew from membership, or
the FINRA Code, which replaced the NASD Code when,
subsequent to MetLife’s withdrawal from the NASD, the
NASD was replaced by FINRA. For purposes of this
dispute at least, the main pertinent provisions of the
two Codes are functionally identical, and, to the extent
that they differ, the difference would not change our
conclusions. We therefore find it unnecessary to decide
which of the two Codes governs. Because the parties and
the District Court have assumed that the FINRA Code
governs, we will focus on its provisions, noting differences
from NASD’s Code where appropriate.
FINRA Rule 13200 (which is substantially identical
for our purposes to NASD Code Rule 10101) provides:
[A] dispute must be arbitrated under the Code if
the dispute arises out of the business activities
of a member or an associated person and is
between or among: Members; Members and
Associated Persons; or Associated Persons.
For purposes of this provision, it is undisputed that,
until MetLife withdrew from the NASD in 2007, it was a
“member” and Bucsek was an “associated person.”
FINRA Rule 13413 (which is substantially identical
for our purposes to NASD Rule 10324) provides:

7a
Appendix A
The panel has the authority to interpret and
determine the applicability of all provisions
under the Code. Such interpretations are final
and binding upon the parties.
FINRA Rule 13100 defines “member” as:
[A]ny broker or dealer admitted to membership
in FINRA, whether or not the membership has
been terminated or cancelled. . . .
The first clause of this rule, defining a member as “any
broker or dealer admitted to membership” is functionally
identical to the NASD’s definition of membership set
forth in its Bylaws. See NASD Bylaws, Art. I (ee). The
second clause (relating to survival of membership after
termination or cancellation) was not a part of the NASD’s
definition of membership.
Bucsek contends the district court erred in undertaking
to decide whether his dispute was subject to the arbitration
agreement, rather than referring that issue to the
arbitrator. In general, what is determinative for deciding
whether the arbitrability of a dispute is to be resolved by
the court or by the arbitrator is the arbitration agreement.
Just as the parties may elect through their contract to
have arbitrators (rather than a court) resolve categories
of disputes between them, they may similarly contract to
have arbitrators (rather than a court) decide whether a
particular dispute is to be arbitrated under the terms of
the contract. We refer to the latter issue as the question
of “arbitrability” of the dispute. The Supreme Court

8a
Appendix A
recently ruled in Henry Schein Inc. v. Archer & White
Sales, Inc., 139 S.Ct. 524, 202 L. Ed. 2d 480 (2019), that,
when the parties have contracted to submit the question
of the arbitrability of a dispute to arbitrators, courts must
respect and enforce that contractual choice. There are
many reasons why the parties to a business relationship
might wish to have the arbitrability question, as well as
all aspects of future disputes between them, decided
by arbitrators, rather than by the courts. They might
regard court proceedings as too slow, too expensive, too
burdensome, or too public. They might prefer to rely on
arbitrators who are familiar with the habits and customs
of their area of commerce. They might prefer to have
the entire matter heard in one forum, rather than two.
Regardless of their reasons (and even in the absence of
reasons), parties are free to enter into a binding contract
by which either party can compel the other to have every
aspect of a future dispute between them, including its
arbitrability, determined by arbitrators. See Rent-ACenter, W., Inc. v. Jackson, 561 U.S. 63, 66, 69, 130 S. Ct.
2772, 177 L. Ed. 2d 403 (2010) (finding that an arbitration
agreement giving the arbitrators “exclusive authority
to resolve any dispute relating to the interpretation,
applicability, enforceability or formation of this contract”
empowered the arbitrators to resolve arbitrability of an
unconscionability claim).
On the other hand, persons involved in a dispute
are ordinarily entitled to have access to a court for the
resolution of the dispute. It is a fundamental tenet of law
that only by agreeing to arbitrate does a person surrender
the right of access to a court for the resolution of a legal

9a
Appendix A
dispute that is subject to adjudication. See AT & T Techs.,
Inc. v. Comms. Workers of America, 475 U.S. 643, 648,
106 S. Ct. 1415, 89 L. Ed. 2d 648 (1986) (“[A]rbitration
is a matter of contract and a party cannot be required
to submit to arbitration any dispute which he has not
agreed so to submit. This axiom recognizes the fact that
arbitrators derive their authority to resolve disputes only
because the parties have agreed in advance to submit
such grievances to arbitration.” (internal quotation marks
and citations omitted)). The right of access to courts is of
such importance that courts will retain authority over the
question of arbitrability of the particular dispute unless
“the parties clearly and unmistakably provide[d]” that
the question should go to arbitrators. Howsam v. Dean
Witter Reynolds, Inc., 537 U.S. 79, 83, 123 S. Ct. 588,
154 L. Ed. 2d 491 (2002). This rule is designed to guard
against “the risk of forcing parties to arbitrate a matter
that they may well not have agreed to arbitrate.” Id. at
83-84. Were the courts to cede to arbitrators resolution
of the arbitrability of the dispute (absent the clear and
unmistakable agreement of the parties to that effect), this
would incur an unacceptable risk that parties might be
compelled to surrender their right to court adjudication,
without their having consented. See First Options of
Chicago, Inc. v. Kaplan, 514 U.S. 938, 945, 115 S. Ct.
1920, 131 L. Ed. 2d 985 (1995). In Henry Schein, the
Supreme Court recently reaffirmed the proposition of
First Options that courts “should not assume that the
parties agreed to arbitrate arbitrability unless there is
clear and unmistakable evidence that they did so.” Henry
Schein, 139 S.Ct. at 531 (quoting First Options, 514 U.S.
at 944). Accordingly, in the absence of an arbitration

10a
Appendix A
agreement that clearly and unmistakably elects to have
the resolution of the arbitrability of the dispute decided
by the arbitrator, the question whether the particular
dispute is subject to an arbitration agreement “is typically
an issue for judicial determination.” Granite Rock Co. v.
Int’l Bhd. of Teamsters, 561 U.S. 287, 296, 130 S. Ct. 2847,
177 L. Ed. 2d 567 (2010) (internal citation and quotation
marks omitted).
The result of these principles is that, to determine
whether the issue of arbitrability of this dispute should be
resolved by an arbitrator rather than the court, we must
examine the parties’ agreement to determine whether
they clearly and unmistakably agreed to have that issue
resolved by arbitrators. If the parties so agreed, it is the
obligation of the court to enforce their agreement. See
Henry Schein, 139 S.Ct. at 530; Rent-A-Center, 561 U.S.
at 69-70.
We therefore turn to the arbitration Code to
determine whether, in either the NASD or the FINRA
version, it reflects a clear and unmistakable agreement
by the parties to have the question of arbitrability of this
dispute determined by arbitrators rather than the court.
Neither version of the Code directly addresses the
question. At least so far as reflected in the court opinions
that have focused on this question, rarely do arbitration
agreements directly state whether the arbitrator or the
court will decide the issue of arbitrability. In the absence
of language that directly addresses the issue, courts
must look to other provisions of the agreements to see

11a
Appendix A
what contractual intention can be discerned from them.
Broad language expressing an intention to arbitrate
all aspects of all disputes supports the inference of an
intention to arbitrate arbitrability, and the clearer it is
from the agreement that the parties intended to arbitrate
the particular dispute presented, the more logical and
likely the inference that they intended to arbitrate the
arbitrability of the dispute. See, e.g., Wells Fargo Advisors,
LLC v. Sappington, 884 F.3d 392, 394, 396 (2d Cir. 2018)
(A clause expressing agreement “to arbitrate any dispute,
claim or controversy that may arise between you and
Wells Fargo Advisors, or a client, or any other person[,
and] . . . giving up the right to sue Wells Fargo Advisors
. . . in court concerning matters related to or arising
from your employment” “demonstrate[d] the parties’
clear and unmistakable intent to arbitrate all questions
of arbitrability.”); PaineWebber Inc. v. Bybyk, 81 F.3d
1193, 1199 (2d Cir. 1996) (A contractual provision that
“any and all controversies . . . concerning any account,
transaction, dispute or the construction, performance,
or breach of this or any other agreement . . . shall be
determined by arbitration” and that “the parties are
waiving their right to seek remedies in court” was found
to “evidence the parties’ intent to arbitrate all issues,
including arbitrability.”) (emphases omitted).
In contrast, the clearer it is that the terms of the
arbitration agreement reject arbitration of the dispute,
the less likely it is that the parties intended to be bound
to arbitrate the question of arbitrability, unless they
included clear language so providing, and vague provisions
as to whether the dispute is arbitrable are unlikely to

12a
Appendix A
provide the needed clear and unmistakable inference of
intent to arbitrate its arbitrability. Accordingly, what the
arbitration agreement says about whether a category of
dispute is arbitrable can have an important bearing on
whether it was the intention of the agreement to confer
authority over arbitrability on arbitrators.
1. FINRA Rule 13100 and the Arbitrability of Bucsek’s
claims. The NASD/FINRA Code cannot reasonably
be interpreted to provide for arbitration of Bucsek’s
claims. This is because his claims are based on events
that occurred years after he and MetLife had ceased to
have any connection with the NASD. 3 The claims relate
to events for which the NASD and FINRA have no
regulatory interest.
Bucsek contends this is irrelevant because FINRA
Rule 13100 provides that a broker or dealer once admitted
to membership continues to be a member “whether or
not the membership has been terminated or canceled.”
According to his interpretation of this rule, an entity
that was once a member remains a member subject to
the arbitration Code forever as to any future dispute
with a party against which it would have been required to
3. Bucsek contends that his claims also challenge MetLife’s
dealings with him during the time of MetLife’s membership in the
NASD, but this argument is meritless. While it is true that Bucsek’s
claims make vague, passing references to his “entire” employment
at MetLife, all of the allegations of wrongdoing—primarily denials
of requests for a raise and payment errors—are alleged to have
occurred between 2011 and 2016, years after MetLife’s withdrawal
from the NASD.

13a
Appendix A
arbitrate during its active membership. MetLife opposes
his position on two grounds. First, it argues that it is
not subject to FINRA Rule 13100 because it was never a
member of FINRA, and this clause of FINRA Rule 13100
was not a part of the NASD Code to which it was subject.
Second, MetLife argues that Bucsek’s interpretation
distorts this provision and produces preposterous results.
We need not decide whether MetLife is subject to a
provision of the FINRA Code that was not a part of the
NASD Code, because Bucsek’s asserted interpretation of
Rule 13100 is untenable and would produce absurd results
that could not have been intended by FINRA or any of
the contracting parties that subjected themselves to the
FINRA Code.
Bucsek’s proposed interpretation would mean that
all persons or entities that were ever subject to FINRA’s
arbitration Code would forever remain subject to it with
regard to future disputes between them, even if the
dispute concerned events that occurred years, decades,
or even centuries after either of the parties to the dispute
had ceased to have any connection with FINRA.
Suppose, for example, that two business entities
were FINRA members for the same brief period of time,
and that each soon thereafter abandoned the securities
business, withdrew from FINRA, and went on to conduct
business in completely different areas of enterprise.
Decades or centuries later, a new business dispute arose
between them that had nothing to do with FINRA, with
the securities business, or with the past experiences

14a
Appendix A
of either of them during the brief, long-forgotten time
when they were both members of FINRA. Bucsek’s
interpretation of Rule 13100 would mean that the dispute
must be arbitrated because each entity had, in perpetuity,
surrendered its right to have new disputes between them
adjudicated by a court of law, and had instead committed
itself in perpetuity to arbitrate any such disputes before
FINRA.
Similarly, in the context of disputes between employer
and employee, Bucsek’s interpretation would mean that,
if a registered representative entered the employ of an
NASD member, in contemplation of the member and
the representative immediately quitting the securities
business and embarking together in a different unrelated
field of business, then for as long as the employment
relationship continued following their joint withdrawal
from the securities business and NASD supervision,
either could compel the other to surrender the right to
court adjudication in favor of FINRA arbitration of any
dispute relating to their future “business activities.” That
interpretation would be incompatible with the reasonable
expectations of the parties to the arbitration agreement,
and could not reasonably be inferred from their long
prior acceptance of submission to the FINRA or NASD
Code. Nor would it make any sense from the point of view
of FINRA. FINRA would have no reason to arbitrate a
dispute relating to business activities that had nothing
to do with FINRA’s regulatory interests merely because
once, in the distant past, the disputants had briefly been
under FINRA’s supervision. As the district court put it,
“it simply cannot be the case that any FINRA member

15a
Appendix A
would have contemplated that its FINRA membership
would perpetually subject it to FINRA’s arbitration
requirement, even for causes of action arising long after
its membership ended.” App. 194 (quoting Metro. Life Ins.
Co. v. Puzzo, 1:13-cv-3858, 2014 U.S. Dist. LEXIS 62773,
2014 WL 1817636, at *2 (N. D. Ga. May 6, 2014) (internal
quotation marks omitted)).
Other courts, encountering the argument here
advanced by Bucsek, have sensibly rejected it. These
courts have uniformly concluded that the Code’s
continuation of “member[ship]” following termination
or cancellation means, as MetLife advocates, that if the
material events that gave rise to a dispute occurred while
a party was a functioning member, that party is bound by
the Code for the purposes of that dispute, even if it has
subsequently canceled its membership or been expelled.
See Christensen v. Nauman, 73 F. Supp. 3d 405, 411 n.4
(S.D.N.Y. 2014) (concluding that a party whose FINRA
membership terminated prior to the litigation was not
precluded from pursuing FINRA arbitration, so long as
it was still a member at the time of the “material events
giving rise to the dispute” (quoting Puzzo, 2014 U.S. Dist.
LEXIS 62773, 2014 WL 1817636, at *3)). We conclude that
neither the NASD nor the FINRA Code can be reasonably
interpreted as providing for arbitration of Bucsek’s claims
over events that occurred years after both he and MetLife
had terminated their relationship with the NASD.
We conclude that, insofar as demonstrated on the
motion for preliminary injunction, if the arbitrability of
this dispute is to be determined by the court, it is not

16a
Appendix A
arbitrable. We recognize that the non-arbitrability of
the dispute does not determine whether the question of
arbitrability is for the court or for arbitrators, as parties
may consent to submit arbitrability to arbitrators even for
disputes which clearly do not fall within the scope of their
agreement to arbitrate. We therefore turn to Bucsek’s
argument that the arbitration code provides for arbitration
of the question of arbitrability.
2. FINRA Code Rule 13413 and Alliance Bernstein.
Bucsek argues that notwithstanding our conclusion that
the dispute is not arbitrable, the FINRA Code calls
for arbitration of arbitrability. He cites FINRA Rule
13413, which provides that the arbitration panel “has the
authority to interpret and determine the applicability
of all provisions of the Code.” He further points out
that in Alliance Bernstein Investment Research and
Management, Inc. v. Schaffran, 445 F.3d 121 (2d Cir.
2006), we concluded that NASD Rule 10324, which is
substantially identical to FINRA 13413, evidenced
a clear and unmistakable intention in an arbitration
agreement that incorporated the NASD Code to have
the arbitrators decide arbitrability of a question that
turned on interpretation of the Code. Bucsek contends
that the Alliance Bernstein ruling compels us to rule
that the Code clearly and unmistakably delegates the
resolution of arbitrability to the arbitrators here. We are
not persuaded. The claim in Alliance Bernstein was so
different from Bucsek’s claims that the holding in that
case cannot reasonably govern this one.
In Alliance Bernstein, an NASD member’s employee
(an associated person) sought to arbitrate his claim of

17a
Appendix A
wrongful termination. Unlike Bucsek’s claim, the claim
in Alliance Bernstein related entirely to events that
occurred while the employer was an NASD member
operating in the securities business and while the
claimant was an “associated person,” so that the dispute
was indisputably subject to the provisions of the NASD
Code. The employee claimed he had been terminated by
reason of his cooperation in government investigations into
the operations of the employer, and that his termination
therefore violated § 806(a) of the Sarbanes-Oxley Act, 18
U.S.C. § 1514A (prohibiting an employer from discharging
an employee “because of any lawful act done by the
employee . . . to provide information . . . or otherwise
assist in an investigation regarding any conduct which
the employee reasonably believes constitutes a violation
of [federal securities laws]”). See Alliance Bernstein, 445
F.3d at 123. Under the pertinent provisions of the NASD
Code, disputes between a member and an associated
person were arbitrable unless they fell within the terms
of an explicit exception for claims of “employment
discrimination.” Id. at 124. Accordingly, the question
whether the parties had agreed to arbitrate turned on
whether the employee’s claim that he had been discharged
in retaliation for his cooperation with the government was
a claim of “employment discrimination.” If not, the claim
was arbitrable. The NASD Code’s Rule 10324, like FINRA
Rule 13413, gave arbitrators authority “to interpret and
determine the applicability of all provisions under [the]
Code.” Id. (quoting NASD Code Rule 10324).
We concluded that, in “empower[ing the arbitrators] to
interpret and determine the applicability of all provisions

18a
Appendix A
under this Code,” id. at 124, the parties had delegated to
the arbitrators, and not the court, the determination of
the arbitrability of that dispute.
Given the fact that neither in our case nor in Alliance
Bernstein does the arbitration agreement contain language
directly addressing the question who should decide the
arbitrability of the dispute, the courts are required in
both cases to examine other provisions of the agreement
to interpret the contractual intent of the parties on that
issue. In Alliance Bernstein, it was beyond dispute that
the controversy was generally covered by the NASD Code
and a high likelihood furthermore that it was arbitrable.
Because the dispute was based on business activities of a
member in relation to an associated person while both were
subject to NASD supervision, it was indisputably within
the general scope of the arbitration Code. In addition, the
asserted violation of law, the termination of an employee
by reason of actions of the employee that are harmful
to the interests of the employer, is sufficiently different
from the conventional understanding of “discrimination,”
as to give strong support to arbitrability under the Code
provisions. The rule empowering the arbitrators to
interpret the Code therefore supported the conclusion that
the agreement intended to give the arbitrators authority
over the question of arbitrability, and there was nothing
in the agreement to support a contrary interpretation.
Here, in contrast, the agreement cannot be reasonably
interpreted to provide for arbitration of the dispute.
W hile that fact does not preclude construing an
agreement as providing for arbitration of arbitrability,

19a
Appendix A
it is a substantial makeweight against such a conclusion
unless counterbalanced by clear language contradicting
the logical inference that parties who clearly agree not
to arbitrate a particular type of dispute are unlikely to
intend to arbitrate the arbitrability of such a dispute. The
language of NASD Rule 10324, which was sufficient to
support the inference of intent to arbitrate arbitrability
in circumstances of a dispute between a current NASD
member and associated person where there was no
evidence pushing in the opposite direction, is not
necessarily sufficient to support a clear and unmistakable
inference of intent to arbitrate arbitrability when other
aspects of the agreement argue powerfully against that
inference. We think it extraordinarily unlikely that the
Alliance Bernstein panel could have reached the same
result if its claimant, like Bucsek, had been seeking
arbitration of a dispute based on facts that occurred
years after he and his employer had ceased to operate
under the regulatory authority of the NASD. The
Alliance Bernstein panel cannot have anticipated that
its altogether reasonable holding in those circumstances
would be applied to a far-fetched claim of arbitrability of a
dispute based on facts that arose long after the parties had
withdrawn from NASD supervision. Rule 13413’s support
for an inference of contractual intent to confer arbitrability
on the arbitrators is only moderate. The provision
empowering arbitrators “to interpret and determine the
applicability of all provisions of the Code” makes clear
that arbitrators do not lack authority to interpret the
Code and determine the applicability of its provisions,
but it does not suggest that this power belongs exclusively
to arbitrators. In the context of a claim based on events

20a
Appendix A
that occurred years after both parties to the dispute had
severed all connections with the NASD, this provision fails
to support a clear and unmistakable inference that the
contract intended to confer the resolution of arbitrability
on the arbitrator.
3. Henry Schein. Bucsek further argues that our
reasoning is not compatible with the Supreme Court’s
holding in Henry Schein. He essentially construes
Henry Schein to mean that a court considering whether
the arbitration agreement confers authority over
arbitrability on the arbitrators may not consider whether
the agreement calls for arbitration of the dispute. That
argument misunderstands the point of Henry Schein.
Its meaning is quite different. The point of the Henry
Schein opinion was that, where the parties have agreed to
submit arbitrability to arbitration, courts may not nullify
that agreement on the basis that the claim of arbitrability
is groundless. The fault found by the Supreme Court
in the lower court opinions was not that they failed to
send the question of arbitrability to arbitrators. It was
that the lower court, applying what the Supreme Court
called a “wholly groundless exception,” failed to make a
finding on whether the arbitration agreement called for
sending arbitrability to the arbitrator. The fact that a
claim of arbitrability is groundless does not necessarily
mean that the parties did not intend to have the question
of arbitrability determined by arbitrators. The parties
might nonetheless have agreed to submit arbitrability to
arbitrators, and the court should not conclude otherwise
without having explored the intentions of the contract on
that question. Nonetheless, courts were warned not to
“assume that the parties agreed to arbitrate arbitrability

21a
Appendix A
unless there is clear and unmistakable evidence that they
did so.” Id. at 531 (quoting First Options, 514 U. S. at 944).
The proposition that there is no valid “wholly groundless
exception” to enforcing an arbitration agreement that gives
the arbitrators authority over the question of arbitrability
does not suggest that, in interpreting the agreement
to discern whether it intended to confer the resolution
of arbitrability on the arbitrators, the court should not
consider all pertinent evidence. We reject Bucsek’s claim
for arbitration of arbitrability not because we view the
claim of arbitrability is groundless. We reject it because,
upon consideration of all evidence of the intentions of the
arbitration agreement, including the groundlessness of
Bucsek’s claim of arbitrability, the agreement does not
clearly and unambiguously provide for arbitration of the
question of arbitrability. Our reasoning is based on the
parties’ contract, and not based on any exception to what
the parties have contracted for.
In conclusion, so far as shown in the district court
record, the arbitration code does not apply to a dispute
based on events that occurred years after the parties had
severed their connections with the NASD. Furthermore,
we find nothing in the Code that clearly and unmistakably
evidences a contractual intent to confer resolution of
arbitrability on the arbitrators for a claim such as Bucsek’s,
which is based on facts long subsequent to the parties’
involvement in the NASD. Finding no error, we affirm.4
4. As the district court’s ruling was made on a motion for a
preliminary injunction, we recognize that Bucsek retains the right
to present additional evidence supporting his arguments at a trial
of Metlife’s demand for a permanent injunction.

22a
Appendix B of the UNITED
Appendix B — JUDGMENT
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED MARCH 22, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 17-881
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 22nd day of March, two
thousand and nineteen.
Metropolitan Life Insurance Company,
Plaintiff-Appellee,
v.
John Bucsek,
Defendant-Appellant.
Before:
Robert A. Katzmann,
		
Chief Judge,
Pierre N. Leval,
		
Circuit Judge,
Andrew L. Carter,
		
District Judge.*
* Judge Andrew L. Carter, of the United States District
Court for the Southern District of New York, sitting by designation.

23a
Appendix B
JUDGMENT
The appeal in the above captioned case from an order
of the United States District Court for the Southern
District of New York was argued on the district court’s
record and the parties’ briefs. Upon consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the order of the district court is
AFFIRMED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/

24a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED JANUARY 22, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 22nd day of January, two thousand
nineteen.
17-881
METROPOLITAN LIFE INSURANCE CO.,
Plaintiff-Appellee,
v.
JOHN BUCSEK,
Defendant-Appellant.
Present:
Robert A. Katzmann,
Chief Judge,
Pierre N. Leval,
Circuit Judge,
Andrew L. Carter, Jr.,
District Judge.*

* Judge Andrew L. Carter, Jr., of the United States District
Court for the Southern District of New York, sitting by designation.

25a
Appendix C
By February 5, 2019, the parties shall submit letter
briefs of no more than ten double-spaced pages arguing
the effect, if any, of the Supreme Court’s decision in Henry
Schein, Inc., et al v. Archer & White Sales, Inc., No. 171272, 2019 WL 122164 (U.S. Jan. 8, 2019) on this appeal.
		
		

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

		

/s/

26a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, FILED MARCH 8, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 812 (PAE)
METROPOLITAN LIFE INSURANCE COMPANY,
Plaintiff,
v.
JOHN BUCSEK,
Defendant.
ORDER
PAUL A. ENGELMAYER, District Judge:
For the reasons set forth on the record of today’s
conference, the Court grants MetLife’s motion for a
preliminary injunction. The Court enjoins Mr. Bucsek
from pursuing his claims against MetLife in an arbitration
before FINRA.
The parties are directed to submit a joint letter to
the Court by March 28, 2017, stating whether Mr. Bucsek
intends to contest MetLife’s application for a permanent
injunction with regard the arbitrability of his claims. In

27a
Appendix D
the event further litigation is contemplated, the parties are
directed to jointly submit a proposed case management
plan.
SO ORDERED.
/s/				
Paul A. Engelmayer
United States District Judge
Dated: March 8, 2017
New York, New York

28a
Appendix E OF THE UNITED
APPENDIX E — TRANSCRIPT
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, DATED MARCH 7, 2017
[1]UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 CV 812 (PAE)
METROPOLITAN LIFE INSURANCE COMPANY,
Plaintiff,
v.
JOHN BUCSEK,
Defendant.
New York, N.Y.
March 7, 2017
5:30 p.m.
Before:
HON. PAUL A. ENGELMAYER,
						District Judge
[2]THE COURT: Good afternoon slash evening,
everyone. Be seated.
Who do I have for the plaintiff MetLife?

29a
Appendix E
MR. TURNBULL: Good afternoon, your Honor. Ken
Turnbull with Morgan, Lewis & Bockius for Metropolitan
Life Insurance.
THE COURT: Good afternoon, Mr. Turnbull.
MR. TURNBULL: Good afternoon.
MR. COSS: Good afternoon, your Honor. Christopher
Coss with Coss & Momjion.
THE COURT: Good afternoon, Mr. Coss. Who are
you joined by?
MR. COSS: This is Thomas Momjion, my law partner.
THE COURT: Very good. Good afternoon.
We’re here on MetLife’s application for preliminary
relief. I’ve read through the materials carefully and I’m
prepared to rule. I have a few questions which are more
for context and background than anything. And let me
just begin with you, Mr. Turnbull.
I’m curious. Supposing that the Court were to deny
your application and you had to proceed in front of FINRA.
Is there any further audience within FINRA to whom you
would go in pursuing your claim of non-arbitrability? The
director of arbitration has basically said no dice. What
happens next?
MR. TURNBULL: Your Honor, we actually inquired
of [3]FINRA about that, and they informed us that the

30a
Appendix E
proper procedure was to make an application to the
director, asking them to deny use of their forum for the
reasons we set forth.
THE COURT: You’ve already done that and he said no.
MR. TURNBULL: Correct.
THE COURT: Would your next step be with the
arbitrable panel that forms? Presumably, if the point is
that the issue of arbitrability, if Mr. Bucsek is right, is
committed to FINRA, it’s then an issue that you would
pursue before the arbitrator or arbitrators in FINRA.
Is there any other administrative step or do you
essentially go right to the panel?
MR. TURNBULL: The only other administrative step
would be to the panel itself.
THE COURT: I see. Do you have any insight or
experience about whether FINRA panels are receptive
or not to issues of claims of non-arbitrability, that there
is no arbitrable agreement or the subject matters outside
the scope of an agreement?
MR. TURNBULL: I do not, your Honor. I do know
that FINRA is a for-profit organization, and so they are
more likely to take claims than not as part of their dispute
resolution procedures. The -THE COURT: Does FINRA make money on having
an arbitration before it?

31a
Appendix E
[4]MR. TURNBULL: Because they can. I don’t mean
to impugn the reputation of FINRA, I’m just pointing out
a fact. I’m not aware of any rulings by arbitrable panels
on this issue.
THE COURT: The balance of equities and irreparable
hardship appear to be undisputed elements here, but I
would like to flesh them out a bit.
Supposing that you are obliged to pursue your claim
of non-arbitrability in front of a FINRA panel. I think I
get it, but I’d like you to articulate for me how it is that
that causes hardship to MetLife.
MR. TURNBULL: Sure. Well, I think it causes
hardship in a couple of ways. First, even being required
to appear before an arbitration panel when it is our
contention that there is no arbitration agreement in the
first place, in and of itself constitutes irreparable harm,
because we are having that decision made in the first
instance by a deciding body that we, MetLife, did not
agree should be deciding any dispute, this dispute that
Mr. Bucsek raises.
THE COURT: Sure. But let’s suppose that whoever
decided it within FINRA, call it the panel, applied
exactly the same legal standards as I would apply, and
for argument’s sake, were to conclude with you that the
scope of whatever old arbitration commitment existed
does not include these claims. What would have happened
is you would have gone one further [5]step down the road
in FINRA, only to prevail on the merits.

32a
Appendix E
The issue is, in other words, what the harm to you
is by having the issue of arbitrability litigated in front
of FINRA, not, for the time being, assuming that the
outcome would be decided differently on the same facts
and law by the FINRA panel than by the Southern District
of New York.
MR. TURNBULL: Right. The other point I wanted to
make, your Honor, is that we believe that this is an issue
to be reviewed de novo by the Court.
THE COURT: I understand that. I’m trying to
understand the harm.
MR. TURNBULL: If the arbitrators ruled contrary
to our position, the standard of review on an arbitration
award is much more deferential.
THE COURT: I see. Okay. Thank you.
Who is going to be speaking for Mr. Bucsek? Do I
have the pronunciation right?
MR. COSS: Yes.
THE COURT: As a recovering civil and securities
litigator, I’m always intrigued by why people make the
choices they do.
With all due respect, why do you want to be in front
of FINRA?

33a
Appendix E
MR. COSS: Because there is an arbitration agreement.
THE COURT: Putting aside the view that you are
[6]properly there. As a strategic matter, with the other
side having said we’re happy to meet you in court, I’m
just intrigued by the decision. I remember when I was in
private practice, if there was any old saw out there, it went
the other way, which is the institutions were happier to go
to the indigenous arbitrators and the registered reps and
others were trying to get into court. I’m just intrigued by
the litigation choice.
MR. COSS: It is a more streamlined procedure. And
in this particular case, Mr. Bucsek, rather than getting
embroiled in a situation where there are depositions
and motions and things of that sort, there are certain
advantages to the arbitrable forum, even for registered
representative like Mr. Bucsek.
THE COURT: Next question. I’m going to ask both
of you this, but I’ll just start with you, Mr. Coss, because
you’re on your feet.
For argument’s sake, is there any difference here
between a preliminary injunction and a permanent
injunction? In other words, assuming for argument’s sake
you were to lose on the issue of a preliminary injunction,
ordinarily, in the ordinary case, the case goes on and
we would set a case management schedule, we would
figure out what discovery was needed. It feels as if those
two choices substantially collapse. Is there a difference
between them?

34a
Appendix E
[7]MR. COSS: Yes, there is. In this respect: We
believe that the Court has everything in front of it now
to deny the preliminary injunction.
THE COURT: Right.
MR. COSS: However, we don’t believe, if the Court
were inclined to consider entertaining the motion, we
don’t believe that it’s ripe, because as we’ve stated in our
papers, we’ve made multiple requests for -- we believe the
U-4 covers this, and that’s all that the Court needs. But
that said, we would like to know whether or not there is
another agreement that may operate here.
THE COURT: I see.
MR. COSS: And I would just note for the Court, in
the arbitration process, FINRA, both the director or the
staff attorney and the panel, made a determination that
unless and until a Court issues an order, the arbitration
goes forward. We served discovery months ago to get the
personnel and licensing files for Mr. Bucsek, which would
contain any additional agreements.
THE COURT: Let’s suppose a preliminary injunction
were to issue here that enjoined Mr. Bucsek from pursuing
the arbitration. Presumably that then would be forwarded
to FINRA, so it would understand why neither party was
cooperating with the arbitration. Then the issue would be
is there a difference between preliminary and permanent
relief.

35a
Appendix E
[8]I think what you’re saying is you would want to
reserve the right in this litigation to pursue discovery to
see if, for example, even if the Court ruled against you
based on the U-4, there was some follow-on agreement
that independently justified FINRA arbitration, and
therefore, whether or not I would order such discovery on
the pleadings, you would at least want to take a stab at it,
and therefore there is a difference between preliminary
and permanent relief.
Am I reading that right?
MR. COSS: That’s precisely correct. I have requested
by e-mail twice in the last couple of weeks copies of the
personnel licensing files, I received no response to either
e-mail, so for the reasons I’ve stated -THE COURT: In other words, if you lose here, while
the FINRA arbitration would be enjoined, you would
be reserving your rights to then in the four corners of
this litigation argue that you are entitled to discovery,
including of the sort you described, to allow you to
determine whether other agreements or documents
created an arbitration agreement that hypothetically
the Court might not have found in granting MetLife
preliminary relief.
MR. COSS: That’s correct, and the other proviso I
would add is just MetLife filed a reply brief. We have not
had a chance to respond to that.
THE COURT: That’s the nature of the reply brief.

36a
Appendix E
[9]MR. COSS: I understand, but I would at least want
there would be some sort of -- like, if the Court were to
have come in today and just said here’s the ruling, we
would have said, well, there are actually things that the
Court needs to consider.
THE COURT: I am going to give a ruling, but it is on
the preliminary relief. All right.
And plaintiff, Mr. Turnbull, as to MetLife, for
argument’s sake, assuming that, first of all, the preliminary
relief was granted, I take it you would agree that as a
formal matter it doesn’t have to equate to permanent
relief. You might or might not oppose a bid for discovery,
but as a formal matter, the back table has the right to try.
MR. TURNBULL: Actually, your Honor, I was a little
surprised by Mr. Coss’s position on this, only because he
had asked -- he had called and said, look, do I need to
answer, can we just push that out. In effect, the decision
on this order to show cause is going to be the ultimate
decision. And so that’s how we view it, that the preliminary
and the permanent collapse. That doesn’t mean that -THE COURT: But just because you view it that
way, and just because you may turn out to be right,
hypothetically, that there isn’t a lot of daylight between
the two, doesn’t mean that the defense table doesn’t have
an opportunity to regroup, assess, determine whether or
not there is a good-faith basis [10]for seeking discovery
that would change the equation.

37a
Appendix E
MR. TURNBULL: That’s correct, your Honor. As
a technical matter, they certainly could do that. I’d also
say that they could also litigate this in court, if they were
to discover an as-yet undiscovered agreement outside of
the U-4 -THE COURT: Your -MR. TURNBULL: -- arbitration, then they could
refile an arbitration.
THE COURT: As an officer of the court, can you
proffer what efforts have been made to determine in fact
whether there are any even arguable bases for arbitration
here beyond the U-4? In other words -MR. TURNBULL: Indeed, your Honor.
THE COURT: -- what have you done as an officer of
the court to scour the files to see whether or not there is
anything else either running to MetLife’s relationship
with FINRA, or MetLife’s dealings with Mr. Bucsek
that would supply an arguable independent basis for
arbitration?
MR. TURNBULL: Indeed, your Honor. So we
inquired of our client, MetLife Insurance Company, please
go through every record that you might have, electronic,
paper, otherwise. They conducted an exhaustive search
for any agreement that would -- that might contain, might
even arguably contain, an arbitration provision that would
require arbitration of this dispute. The only document
that the company has found is the form U-4 [11]document.

38a
Appendix E
THE COURT: Obviously, in the event that a
preliminary injunction were to issue along the lines
you want, the defense would have the opportunity to
formulate a differently put discovery request which might
hypothetically have a potential to turn up more. Okay.
MR. TURNBULL: I just want to comment on your
initial question to plaintiff or defendant, excuse me, about
the strategic decision here. Because I would put it to
the Court that this is truly a strategic decision to be in
arbitration as opposed to court, because when you look
at the underlying claim that Mr. Bucsek is asserting, it
is in essence, your Honor, “I think I was worth more, I
think I should have been paid more.” And I submit that
he does not want to assert that claim in court, because he
knows it would be subject to a motion to dismiss. I would
add on top of that -THE COURT: Why do you assume that a FINRA
arbitrable panel would not rigorously apply the law, if
you’re right that on the pleadings it is deficient?
MR. TURNBULL: As a matter of FINRA rules,
they will not take a motion to dismiss on the pleadings.
It is impermissible, they will not entertain it. In fact, it is
sanctionable if somebody files a motion like that.
THE COURT: So that’s your theory.
MR. TURNBULL: And, the arbitrators are, as they
[12]frequently remind you when you go to hearing, we are
not bound by the law, this is a forum of equity and we are
here to do equity.

39a
Appendix E
THE COURT: Got it. Why would your client pull out
of NASD and why did your client not join FINRA?
MR. TURNBULL: Your Honor, I don’t know the
decision-making that went on back in 2007 underlying
that decision. I just know that since July 9 of 2007, it has
not been a member of the NASD, and has never been a
member of FINRA.
THE COURT: What about customers? Do customers
who do business with MetLife have arbitration agreements?
MR. TURNBULL: Customers who do business with
MetLife Insurance Company, which is the plaintiff here
and the named respondent in the arbitration, do not bring
claims in FINRA.
THE COURT: What about, out of curiosity, MetLife
securities customers?
MR. TURNBULL: MetLife securities customer who
are buying securities absolutely would have the right to
bring claims against the securities.
THE COURT: That’s based on contract, not based
on membership association. In other words, if I had an
account at MetLife and I concluded that I was being
overcharged for the for securities transaction, what would
compel me to litigate that in arbitration is my customer
agreement with MetLife, not [13]some associational
identification that MetLife has.

40a
Appendix E
MR. TURNBULL: No, I think both, your Honor. I
think it is the customer agreement and I think MetLife
Securities is a member of FINRA and -THE COURT: This is the MetLife Insurance arm,
that is the only part we’re talking about. The rest -MR. TURNBULL: Exactly. The other thing I would
point out on the strategic decision, it has become even more
compelling here because now we are currently proceeding
before a FINRA panel that was appointed without any
input or ranking or striking of potential arbitrators from
MetLife. Because that arbitration appointment process
went on while our request to deny use of the forum was
pending.
THE COURT: I’m prepared to rule. And counsel,
just for your benefit, I’m going to issue a bench decision
now. I’m going to read it into the record. But there will
not be a published decision that issues. Instead, all that
will issue will be a summary order that incorporates by
reference what I say here from the bench. So if the words
I use are important, it will be necessary for you to order
the transcript.
Mr. Coss, you want the last word?
MR. COSS: I would just make one request. If the
Court is inclined to grant a preliminary injunction, I would
like the opportunity to be heard for obviously if it’s -THE COURT: You’ve been heard in writing and here
[14]today. I’m prepared to rule. I’m prepared to rule. I

41a
Appendix E
appreciate that lawyers always would like to say more.
But you’ve had an opportunity in writing and before the
Court to address the relevant issue. The issues are in this
case, if I may, are not unusually barnacled, it is a relatively
straightforward question, which I’m prepared to resolve.
So here it goes:
The Court will now rule on the motion by plaintiff
Metropolitan Life Insurance Company, to whom I will
refer as MetLife, for preliminary relief. MetLife seeks
to enjoin defendant John Bucsek from pursuing certain
claims against MetLife in an arbitration that Bucsek
has initiated before the Financial Industry Regulatory
Authority, or FINRA. Bucsek opposes that application.
And FINRA, to date, has indicated its intention to move
forward with the arbitration.
By way of background, Bucsek joined MetLife’s
retail distribution channel in 2002. He served, at all
relevant times, as a co-managing partner of a MetLife
agency with offices located in New York, New Jersey,
and Connecticut. As a formal matter, the operations of
MetLife for which Mr. Bucsek worked shifted, on July 1st,
2016, to Massachusetts Mutual Life Insurance Company,
or Mass Mutual, when Mass Mutual acquired MetLife’s
retail distribution channel. Bucsek apparently remains
an employee of Mass Mutual today.
Particularly relevant here is MetLife’s association
[15]with the National Association of Securities Dealers or
NASD. At the time Bucsek joined MetLife, MetLife was
a member of NASD. On July 9, 2007 MetLife terminated

42a
Appendix E
its membership with the NASD. Three weeks later, on
July 30, 2007, the NASD merged with parts of the New
York Stock Exchange to form FINRA. MetLife, however,
has never been a member of FINRA. As a result of
MetLife’s termination of its membership with the NASD,
Bucsek’s registration through the NASD, as a result of
his employment with MetLife, terminated on July 9, 2007.
Notwithstanding this, on July 11, 2016, Bucsek
initiated an arbitration against MetLife before FINRA.
He did so by filing a statement of claim with FINRA.
Bucsek brought several causes of action. These included
violations of the New Jersey wage payment law, fraud, and
negligence. Through these, Bucsek alleged in substance
that although he had presided over a very profitable
agency at MetLife, MetLife had significantly underpaid
him relative to his peers. Based on his statement of claim,
Bucsek’s claims appear to span the period beginning in
2011, when a new regional manager named Peter Nejad
took over as Bucsek’s director, and ending in 2016, when
Bucsek filed his claim.
On October 24, 2016, MetLife sent a letter to FINRA,
explaining that it was not and never had been a member
of FINRA. MetLife therefore objected to arbitration
of Bucsek’s case in that forum. On December 1, 2016,
however, FINRA sent [16]MetLife’s counsel a letter
stating that FINRA’s director of dispute resolution had
denied MetLife’s request to decline FINRA as the forum
for the parties’ dispute. Accordingly, the FINRA director
wrote, “the case will proceed in this forum.”

43a
Appendix E
In response, MetLife filed this action before this Court.
MetLife seeks a preliminary and a permanent injunction
that would enjoin Bucsek from pursuing his claims before
FINRA. MetLife argues that there is no agreement to
arbitrate between the parties. It explains that it “ceased
being a member of FINRA’s predecessor nine years
before Bucsek filed his arbitration claim, and four years
before any of the alleged material events giving rise to
defendant’s claims purportedly occurred.” Therefore,
MetLife argues, FINRA has no jurisdiction over Bucsek’s
claims. Bucsek counters that his FINRA claims fall within
the scope of the 2002 arbitration agreement that was part
of his form U-4. And in light of that long-ago arbitration
agreement, Bucsek argues the issue of whether arbitration
before FINRA is appropriate is a question of arbitrable
scope, which is properly resolved by the FINRA arbitrator
or arbitrators and not this Court.
Under the familiar standard for granting a preliminary
injunction, to enjoin the arbitration MetLife must establish
(1) a likelihood of success on the merits; (2) a likelihood
of irreparable harm in the absence of an injunction; (3)
that the balance of equities tips in its favor; and (4) that
an [17]injunction is in the public interest. Citing Winter v.
Natural Resources Defense Council, Inc., 555 U.S. 7, 20
(2008). Alternatively, if likelihood of success on the merits
cannot be established, an injunction may issue if there
are “sufficiently serious questions going to the merits
to make them a fair ground for litigation and a balance
of hardships tipping decidedly” in the applicant’s favor,
MetLife’s favor. Citing Citigroup Global Markets, Inc. v.
VCG Special Opportunities Master Fund Ltd., 598 F.3d
30, 35 (2d Cir. 2010).

44a
Appendix E
The issue here turns on the first factor, the likelihood
of success on the merits. Bucsek does not dispute that if it
were found that MetLife did not consent to resolution of
this dispute before a FINRA arbitrator, that the balance
of equities, and, for that matter, the public interest,
favor a preliminary injunction freeing MetLife from
having to litigate in a forum to which it did not agree to
participate. Bucsek also does not dispute that forcing
MetLife to litigate a case in a forum to which it did not
consent would cause it irreparable harm. Bucsek does not
address these factors in his submission, and therefore
has waived any claim to so argue. See Guzman v. Macy’s
Retail Holdings, Inc., No. 09 CV 4472 (PGG), 2010 WL
222044, at *8 (S.D.N.Y. March 29, 2010). In any event,
even had the matter been argued, it seems clear to the
Court that the litigant who is forced to litigate in a nonjudicial forum to which he did not consent of necessity [18]
suffers material hardship, including likely financial. So,
the only remaining issue before the Court, at least at the
preliminary injunction stage, is whether or not there are
sufficiently serious questions going to the merits and/or
a likelihood of success on the merits.
The relevant background principles governing
arbitrability are familiar. Where “the parties dispute not
the scope of an arbitration clause but whether an obligation
to arbitrate exists,” the general presumption in favor of
arbitration does not apply. Applied Energetics, Inc. v.
NewOak Capital Matters, LLC, 645 F.3d 522, 526 (2d
Cir. 2011) “Arbitrability questions are presumptively to
be decided by the courts,” and this presumption “can be
rebutted only by ‘clear and unmistakable evidence from

45a
Appendix E
the arbitration agreement, as construed by the relevant
state law, that the parties intended that the question of
arbitrability shall be decided by the arbitrator.’” Telenor
Mobile Communications AS v. Storm, LLC, 584 F.3d
396, 406 (2d Cir. 2009). That said, the Second Circuit has
held that when “parties explicitly incorporate rules that
empower an arbitrator to decide issues of arbitrability, the
incorporation serves as clear and unmistakable evidence of
the parties’ intent to delegate such issues to an arbitrator.”
Contec Corp. v. Remote Solution, Co., 398 F.3d 205, 208
(2d Cir. 2005).
Here, Bucsek argues that the preliminary issue of
[19]whether there is an agreement to arbitrate is for the
arbitration panel, not the Court to decide. Under the
governing precedent, that is wrong. In Howsam v. Dean
Witter Reynolds, Inc., 537 U.S. 79, 84 (2002), the Supreme
Court held that “a gateway dispute about whether the
parties are bound by a given arbitration clause raises a
‘question for arbitrability’ for a court to decide.” In Granite
Rock Co. v. International Brotherhood of Teamsters, 561
U.S. 287, 296 (2010), the Supreme Court elaborated. It
noted that “it is well settled that when parties have agreed
to ‘submit a particular dispute to arbitration,’ is typically
an ‘issue for judicial determination,’” and that “a court
may order arbitration of a particular dispute only where
the court is satisfied that the parties agreed to arbitrate
that dispute.” Id. Therefore, the Supreme Court held, “to
satisfy itself that such agreement exists, the court must
resolve any issue that calls into question the formation
or applicability of the specific arbitration clause that a
party seeks to have the court enforce.” Id. Issues of this

46a
Appendix E
nature, the Court stated, “typically concern the scope of
the arbitration clause and its enforceability” and “always
include whether the clause was agreed to, and may include
when that agreement was formed.” Id.
Here, the parties dispute just such an issue. The
issue is whether the arbitration clause in Bucsek’s 2002
form U-4 subject MetLife to arbitration of his present
claims before [20]FINRA. That form stated, in pertinent
part, as follows: “I agree to arbitrate any dispute, claim
or controversy that may arise between me and my
firm, that is required to be arbitrated under the rules,
constitutions, or bylaws of the NASD.” Bucsek further
notes that FINRA is the successor of NASD. Based on
this 2002 form, Bucsek argues that the Second Circuit’s
decision in Alliance Bernstein Investor Research &
Management, Inc. v. Schaffran, 445 F.3d 121 (2d Cir.
2006), is controlling, and compels the conclusion that the
issue of arbitrability presented here falls within the sole
jurisdiction of the arbitrable panel. Because MetLife’s
application is ostensibly not properly before the Court,
Bucsek then argues, MetLife’s motion for preliminary
injunctive relief should be denied on this ground, and
MetLife should be left to pursue before FINRA its claim
of non-arbitrability.
Alliance, however, is inapposite. There, the issue was
whether the plaintiff’s whistleblower claims were of the
type of “employment discrimination claims” within the
scope of an admittedly extant arbitration agreement. This
type of question is entirely different from the threshold
question presented in this case of whether there was

47a
Appendix E
a valid arbitration agreement that bound MetLife to
arbitrate before FINRA any claims arising after its
withdrawal from the NASD. That issue, which presents a
question of whether the parties before the Court agreed
to arbitrate, is a quintessentially judicial [21]question.
And the clear answer to that question is no. On the
facts the parties have thus far put before the Court,
MetLife had no agreement to arbitrate claims by Bucsek
arising out of events long postdating MetLife’s withdrawal
from FINRA’s predecessor, the NASD. Several courts to
confront such questions have reached this unsurprising
conclusion.
Most apposite is the 2014 decision by the Northern
Distr ict of Georg ia on facts that are mater ially
indistinguishable, and indeed, involved MetLife. In finding
no agreement to arbitrate, the Court there held that it
simply cannot be the case “that any FINRA member
would have contemplated that its FINRA membership
would perpetually subject it to FINRA’s arbitration
requirement, even for causes of action arising long after
its membership has ended.” Citing Metropolitan Life
Insurance Co. v. Puzzo, 2014 WL 1817636, at *2 (N.D.
Ga. May six, 2014).
This Court encountered a similar situation in
Christensen v. Nauman, 73 F.Supp. 3d 405 (S.D.N.Y.
2014). The Court there noted that the relevant inquiry to
determine whether a former FINRA member is subject to
FINRA’s jurisdiction is whether the firm was a member
during the “material events giving rise to the dispute.”

48a
Appendix E
Id. at 411 n.4. And that’s because, as the Second Circuit
held in Coudert v. Paine Webber Jackson & Curtis, 705
F.2d 78, 81 (2d Cir. 1983), [22]”it is the general law of
this circuit that there is no duty to arbitrate a grievance
arising after the termination of the agreement between
the parties, even if the expired agreement included an
arbitration clause.”
Other authority is in accord. In Haggerty v. Boylan, No.
1:13 CV 0362 LEK/RFT, 2014 WL 148675, at *3 (N.D.N.Y.
January 13, 2014), a district court enjoined the FINRA
arbitration of the defendant’s third-party claims against
the plaintiff because the plaintiff “was not a member of
FINRA at the time of the relevant transactions, nor was
he an ‘associated person’ of a member.” In Greenberg v.
Ameriprise Financial Services, Inc., No. 15 CV 3589 AD/
SAYS, 2016 WL 3526025 at *6 (E.D.N.Y. March 31, 2016),
a district court held that the relevant inquiry whether
the party was “registered with FINRA at the time the
material events giving rise to the dispute took place.” That
logic is controlling here, as Bucsek’s claims arose years
after MetLife had left NASD.
The Court has no occasion here to consider what the
outcome would be if Bucsek had sued MetLife based on
conduct that occurred in or before MetLife’s withdrawal
from the NASD in 2007. He has not done so. Such a claim
would likely be time barred. In any event, FINRA Code
of Arbitration Rule 12206(a) states that “no claim shall
be eligible for submission to arbitration under the code
where six years have elapsed from the occurrence or event
giving rise to the claim.”

49a
Appendix E
[23]The relevant point here, however, is that Bucsek
has brought no claim predicated on events that predate
MetLife’s withdrawal from the NASD.
Bucsek, finally, speculates that perhaps some other
agreement exists that would mandate arbitration of his
claims against MetLife. He seeks discovery as to that
point. But at least on this application for preliminary
relief, he has not shown entitlement to such discovery. As
this Court held in Begonja v. Vornado Realty Trust, 159
F.Supp. 3d 402, 409 (S.D.N.Y. 2016), a party seeking to
compel arbitration, a closely related circumstance, must
make a prima facie initial showing that an agreement to
arbitrate exists. To date, Bucsek has not made any such
showing. He has not put forward any evidence whatsoever
that he may have signed such an agreement, beyond
the long-expired U-4 form from 2002. And MetLife has
explicitly represented, both to Bucsek and to the Court,
that no such agreement exists.
The Court therefore holds that MetLife is likely, if not
all but certain, to be successful on the merits with respect
to the issue of whether MetLife is required to arbitrate
Bucsek’s claims before FINRA. MetLife is subject, at
least on the record at hand, to no such obligation. The
Court therefore grants MetLife’s motion for a preliminary
injunction, and will enjoin Bucsek from proceeding with
the FINRA arbitration. An order to this effect will follow.
Therein [24]ends the ruling.
So the first question I have now, given the ruling, is I
want to make sure that the words I use in the order that

50a
Appendix E
incorporate this is by reference are equal to the task of
communicating not only to Mr. Bucsek, but importantly
to FINRA, that I’ve enjoined Bucsek from participating.
Mr. Turnbull, what language do you think will be
needed to achieve that?
MR. TURNBULL: Your Honor, I think the conclusion
of the opinion sets forth the language that would be
necessary and effective, that is, Mr. Bucsek is hereby
enjoined from pursuing his claim against MetLife in
arbitration.
THE COURT: Nobody has sought to enjoin FINRA.
MR. TURNBULL: Correct.
THE COURT: You’re not seeking that?
MR . TURNBULL: Cor rect, and FINR A has
represented to us that they will adhere to any Court
directives.
THE COURT: So we don’t have an issue of rogue
FINRA here.
MR. TURNBULL: At least we don’t expect to.
THE COURT: So an order will issue tomorrow that
incorporates by reference the reasons I’ve articulated
from the bench, and essentially is consistent with the final
paragraph of what I’ve read.

51a
Appendix E
Now, I agree, though with defense counsel, that is to
[25]say Mr. Bucsek’s counsel, that all I needed to resolve
and all I have resolved is the motion for preliminary relief.
I think you have a pretty good sense of my current read on
the law, and it is a pretty clear one. Nonetheless, the case
has arisen with some dispatch, and I’m happy to allow the
parties now to litigate this further if Mr. Bucsek thinks it
is a good use of his lawyers’ time and money.
So, defense counsel, my ordinary inclination would
be to ask that lawyers to come together and to submit a
case management plan that ideally provides a schedule for
whatever factual discovery, if there is anything further, to
be held consistent with my individual rules. You can find
on the Southern District website a standard form.
This is an unusual case, and any discovery that’s
probably even sought is likely to be more modest than in
the usual case.
I am also mindful that you and your client may decide
that the handwriting on the wall, although not indelible,
has so far been pretty clearly written, and therefore it may
make more sense for your client simply to litigate rather
than arbitrate his claims.
What I don’t want to do is set a schedule that’s so
fast that in effect you and your client spend more time
and money before you’ve had a chance to reflect on this
together. How much time do you want to confer with
your client [26]and think through what your choice of
options are? In other words, you may conclude that the

52a
Appendix E
better course here is simply to accede to the preliminary
injunction, make it permanent, and pursue the case in
court, and save money litigating in front of the Court, or
you may conclude there’s either facts or law that exists
that might change my mind.
MR. COSS: In answer to your direct question, your
Honor, I think we would probably need a week or less to
confer with our client with respect to what our intention
would be.
I think at a minimum, though, just to be candid with
the Court, I think that we are at a minimum going to
want to see what his files are, and going to want to seek
discovery on that.
THE COURT: I appreciate that, and I’m not
prejudging whether you’re entitled or not to that discovery.
It may be on that, this is the sort of thing that’s resolved
on the face of the complaint and without some pleading of
facts and circumstances giving rise to a bona fide claim of
arbitrability or a colorable claim, without besides the U-4,
you may not be entitled to discovery. Or maybe MetLife
will moot that by giving it to you anyway, because their
spade work has shown there is nothing there, and they’d
rather avoid a dispute about discovery in order to just
move this along.
MR. COSS: I think there would be some additional
discovery as well though, your Honor. It would be limited
[27]discovery, but I think we would want some initial
discovery as well.

53a
Appendix E
THE COURT: At this point I realize I’ve given you a
ruling and you need now to absorb it with your client. I’m
not prejudging what, if any, discovery I would conclude
would be appropriate.
What I am going to suggest is as follows. That,
MetLife, if you in fact have combed the files here, and have
found nothing, and if your goal is here terminate as soon
as possible the bid for arbitration, might there be much
wisdom in your informally giving a show-and-tell of the
file to your adversary here, in the hope that it might lead
them to stand down.
In other words, if Mr. Bucsek has no document besides
the U-4 that justifies or could be said to justify arbitration,
and if you found nothing, maybe walking them through the
file will lead them to say, you know what, having heard the
Court’s assessment of the law, as applied to the U-4, this
thing is going to be litigated in court, not in arbitration.
Can you do that?
MR. TURNBULL: Understood, your Honor. I’ll
certainly talk to my client about that. I understand what
you’re saying and I’ll just need to talk to the client before
making a representation.
THE COURT: Let me issue an order that simply says
[28]this: The parties are to submit to me within, let’s say,
three weeks of tomorrow a joint letter that recites whether
or not the plaintiff intends to pursue this litigation,
meaning litigation over arbitrability.

54a
Appendix E
MR. COSS: Okay.
THE COURT: And if so, how the parties propose that
that litigation proceed. It may be that there is a gating
issue of discovery dispute. Or alternatively, if you are
choosing not to pursue it, whether you are consenting to
the entry of a permanent injunction based on the same
reasoning given in support of the preliminary one.
But, I am going to strongly encourage you, Mr.
Turnbull, to have your client -- I’m saying this in really
strong terms -- clients just want a preliminary injunction
here. I’m not an unreasonable audience, but I’m trying to
minimize everyone’s cost. The smartest and surest way
of getting this arbitrability issue wrapped up is for you
to do an open kimono here, and show the other side what
the files show. And at that point it may be that Mr. Bucsek
can be persuaded that the Court has formed a pretty
clear view about the U-4, if there is nothing else, this is
destined to be litigate.
So I’m going to strongly encourage you posthaste to
show that discovery informally, documentary discovery,
so that hopefully Mr. Bucsek can make an enlightened
decision.
MR. TURNBULL: Your words are clearly heard and
your [29]instruction.
THE COURT: Good. That was the goal. Anything
further from the plaintiff?

55a
Appendix E
MR. TURNBULL: No, your Honor.
THE COURT: Anything further at this time for
defendant?
MR. COSS: No, your Honor.
THE COURT: Thank you. I wish you and your clients
well.
Please explain to Mr. Bucsek this is not a ruling on
the merits of his claims against MetLife. It is simply a
who decides the question. And the preliminary injunction
represents my determination that on the materials
brought to my attention, this is a dispute that gets resolved
in court.
MR. COSS: Understood. I appreciate that.

56a
AppendixOF
F REHEARING OF
APPENDIX F — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED MAY 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 17-881
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of
New York, on the 9th day of May, two thousand nineteen.
METROPOLITAN LIFE INSURANCE COMPANY,
Plaintiff-Appellee,
v.
JOHN BUCSEK,
Defendant-Appellant.
ORDER
Appellant, John Bucsek, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.

57a
Appendix F
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/

